         U.S. Department of Energy
         Office of Inspector General
         Office of Audits and Inspections




Inspection Report
Continuity of Operations Planning
and Intelligence Readiness




INS-L-13-03                     November 2012
                                 Department of Energy
                                   Washington, DC 20585
                                      November 16, 2012

MEMORANDUM FOR THE DIRECTOR, OFFICE OF INTELLIGENCE
               AND COUNTERINTELLIGENCE


FROM:                    Sandra D. Bruce
                         Assistant Inspector General
                            for Inspections
                         Office of Inspector General

SUBJECT:                 INFORMATION: Inspection Report on "Continuity of Operations
                         Planning and Intelligence Readiness"

BACKGROUND

National Security Presidential Directive-20, National Continuity Policy, establishes continuity
requirements for all executive departments and agencies. The Department of Energy developed
Department Order 150.1, Continuity Programs, which establishes requirements to assist the
Department with effectively responding to a wide range of events that may disrupt normal
operations.

The Office of Intelligence and Counterintelligence (IN), a critical partner within the Department
and the Intelligence Community, is responsible for providing timely intelligence to the Secretary
of Energy and other executive branch agencies on threats to energy and nuclear information. IN
also provides support to the Director of National Intelligence and serves as liaison to the
National Joint Terrorism Task Force.

In our report on Improvements Needed in the Department's Emergency Preparedness and
Continuity of Operations Planning (DOE/IG-0845, January 2011), we identified significant
weaknesses in the Department's emergency preparedness and Continuity of Operations Planning
(COOP) programs. Because of the importance of carrying out the Department's key intelligence
functions during a continuity event, we initiated this inspection to assess IN's COOP and
intelligence readiness.

CONCLUSIONS AND OBSERVATIONS

Our inspection revealed that although IN has made various changes to its COOP Implementation
Plans to facilitate intelligence readiness, additional actions could be taken to enhance its
capabilities during a continuity event. Our review also identified certain issues with continuity
communications (classified and unclassified), the results of which are included in a separate
classified annex. However, because IN issued its final 2012 Plan during our inspection, we
could not fully assess the effectiveness of IN's plans for Test, Training and Exercises,
Reconstitution or the Continuity Readiness Assurance Program.
We found that IN generally identified key COOP planning elements in its Draft 2012 COOP
Implementation Plan (2012 Plan), including personnel and logistics. Specifically, IN generally:

   •   Delineated responsibilities to provide support to the Secretary and its Intelligence
       Community partners;

   •   Identified Mission Essential Functions (MEFs) to support the Secretary; and

   •   Identified the Alternate Operating Facility (AOF) and Devolution sites.

However, the 2012 Plan excluded detailed information regarding essential supporting activities
and vital records. Therefore, more needs to be done to ensure that IN staff is clear on its
responsibilities under COOP; equipment is ready; COOP plans, policies and procedures are
valid; and improvements are made to the COOP program, as required.

                                  Essential Supporting Activities

We determined that IN's 2012 Plan excluded detailed information on the Essential Supporting
Activities (ESAs), which are basic critical activities necessary to accomplish the Department's
Primary Mission Essential Functions (PMEFs). ESAs are essential to ensure that the right
personnel have sufficient resources and guidance to accomplish specific tasks during an event.
Without ESAs, the Department may not be able to complete its MEFs and PMEFs. The 2012
Plan also excluded the internal procedures necessary to accomplish the ESAs. Department Order
150.1 requires each Departmental element identify ESAs that it supports and include internal
procedures necessary to ensure those ESAs are accomplished. Specifically, ESAs should include
areas such as: (1) ensuring leadership and accountability; (2) providing for health, safety,
security and accountability of human capital; and (3) ensuring the availability of information
technology (classified and unclassified). ESAs should also include information on the
description of the critical activity, implication if not supported, responsible personnel, and the
associated MEFs.

The absence of specific ESAs and internal procedures may cause responsible IN officials to be
unclear on the critical activities necessary to support the Department's and the Nation's essential
functions during a continuity event. During our inspection, a senior IN official indicated that
excluding the ESAs from the 2012 Plan was an oversight and that IN would address this matter
in the next iteration of IN's COOP Implementation Plan.

                                           Vital Records

We determined that IN has generally taken steps to ensure that vital records are identified and
maintained at the AOF and Devolution sites. Department Order 150.1 requires that IN establish
a vital records program that accounts for the identification and protection of vital records,
systems, software and equipment necessary to perform essential functions during a continuity
event. We found that the 2012 Plan identified vital records including orders of succession,
contact lists, responsibilities and delegations of authority. However, during our inspection, an IN
senior official stated that due to the nature of IN's work, all of IN's information used during its


                                                 2
day-to-day operations may be considered vital and necessary during a continuity event. The
senior official also stated that the type of vital records may depend on the nature of the
emergency. Specifically, records considered vital for operations during a biological event may
be different than records considered vital for operations during a nuclear event. Because IN
would not be able to predict the type of continuity event in advance, it would be prudent to
include all day-to-day records as vital records.

The senior official stated that IN will continue to identify vital information that will be placed on
shared networks (classified and unclassified) and on portable media, such as compact discs and
removable hard drives. The official also stated that the vital information will be available at the
AOF and Devolution sites as required. Finally, the official stated that both the AOF and
Devolution sites have generators to provide backup electrical supplies that would support
computer functions in the event of power failures in a continuity event.

We did not assess the records or the progress made in storing vital records at the specific sites
because IN had not yet fully implemented its procedures for vital records. As such, we could not
fully assess IN's proposed actions; however, we believe the planned actions when fully
implemented, should enhance IN's ability to perform its critical functions during a continuity
event that may disrupt normal operations.

SUGGESTED ACTIONS

We believe that IN has made great strides in developing its COOP Implementation Plan;
however, additional actions could be taken to strengthen its processes for supporting the
Department and other agencies during continuity events. As such, we suggest that IN:

      1. Identify ESAs, develop internal procedures required to accomplish ESAs and incorporate
         the information in the next revision to the 2012 Plan; and,

      2. Update the vital records necessary to ensure that essential functions and activities can be
         performed and reconstituted to normal operations after a continuity event.

As IN has recognized the need to improve its COOP program and has actively demonstrated
remediating actions, we are not making any recommendations and a formal response is not
required. We appreciate your staff's cooperation during our inspection.


Attachment

cc:    Deputy Secretary
       Associate Deputy Secretary
       Under Secretary for Nuclear Security
       Chief of Staff




                                                   3
                                                                                      Attachment 1



                       OBJECTIVE, SCOPE AND METHODOLOGY

OBJECTIVE

We initiated this inspection to assess the Office of Intelligence and Counterintelligence's (IN)
Continuity of Operations Planning (COOP) and intelligence readiness.

SCOPE

The field work was conducted from February 2011 through November 2012 at Department of
Energy (Department) Headquarters, the Alternative Operating Facility (AOF) and the Devolution
Site.

METHODOLOGY

To accomplish the inspection objective, we:

    • Interviewed Department and contractor personnel, White House staff and Department of
      Homeland Security staff;

    • Reviewed and analyzed Federal, Department and IN documents and criteria; and,

    • Conducted physical observations of the Headquarters and AOF locations.

This inspection was conducted in accordance with the Council of the Inspectors General on
Integrity and Efficiency's Quality Standards for Inspection and Evaluation. Those standards
require that we plan and perform the inspection to obtain sufficient, appropriate evidence to
provide a reasonable basis for our conclusions and observations based on our inspection
objectives. We believe the evidence obtained provides a reasonable basis for our conclusions
and observations based on our inspection objective. The inspection included tests and controls
and compliance with laws and regulations to the extent necessary to satisfy the internal control
deficiencies that may have existed at the time of our inspection. Because our inspection was
limited, it would not necessarily have disclosed all internal control deficiencies that may have
existed at the time of our inspection. Also, we assess IN's compliance with the Government
Performance and Results Act of 1993 and found that performance measures had, in general, been
established relating to continuity planning. Finally, we relied on computer-processed data, to
some extent, to satisfy our objective related to continuity planning. We confirmed the validity of
such data, when appropriate, by reviewing source documents and conducting physical
observations.

An exit conference was held with the Office of Intelligence and Counterintelligence and National
Nuclear Security Administration officials on November 6, 2012.




                                                 4
                                                                                     Attachment 2


                                      PRIOR REPORTS

There were no Government Accountability Office (GAO) reports specifically related to
continuity operations within the Department of Energy's (Department) Intelligence and
Counterintelligence. However, there were several Government-wide reports (that included the
Department) related to Continuity of Operations Planning (COOP), with general governmental
findings:

    • Continuity of Operations: Selected Agencies Tested Various Capabilities during 2006
      Government-wide Exercise, GAO-08-185, November 2007. This report described the
      extent to which agencies tested continuity plans and procedures, personnel, and resources
      during a June 2006 Government-wide continuity exercise. To do this, GAO selected
      eight civilian agencies with significant responsibilities during national disasters, analyzed
      agency exercise documentation, and interviewed officials to determine which test and
      exercise activities each agency included in its participation. The Department was one of
      those selected; however, though it did cite the Department's exercise actions, and the
      extent of its reporting thereof, no findings were directed to the Department.

    • Continuity of Operations: Selected Agencies Could Improve Planning for Use of
      Alternate Facilities and Telework during Disruptions, GAO-06-713, May 2006. This
      report reviewed, among other things, the extent 6 selected agencies prepared alternate
      facilities, and 23 major agencies made preparations necessary to effectively use telework
      in emergency situations. The Department was one of those selected; however, no
      findings were directed to the Department.

Prior OIG reports related to Continuity of the Department's Intelligence and Counterintelligence:

   •   Improvements Needed in the Department's Emergency Preparedness and Continuity of
       Operations Planning, DOE/IG-0845, January 2011. This report is a follow-up to the
       August 2004 audit, likewise disclosed significant weaknesses in the DOE's Emergency
       Preparedness and Continuity of Operations programs. The audit results revealed that 55
       percent of Department elements had not submitted individual, updated plans in
       accordance with Department Order 150.1, Continuity Programs. Further, with regard to
       the reviewed plans a number had not included full consideration of all planning
       requirements. As a consequence, significant requirements under the directive that were
       designed to address known program weaknesses, such as pandemic planning and
       demonstrating the ability to respond to a COOP event through training, testing, and
       exercising had yet to be implemented. These weaknesses occurred, in part, because
       Program COOP coordinators and field element managers did not provide adequate
       oversight or ensure contractor compliance with key program requirements. The
       Department's ability to meet its primary national security mission-essential functions
       after a catastrophic event or disruption could be diminished if COOP planning is
       ineffective. A number of recommendations intended to promote effective and
       comprehensive COOP programs throughout the Department was made.




                                                5
                                                                    IG Report No. INS-L-13-03



                              CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if applicable to you:


     1. What additional background information about the selection, scheduling, scope, or
        procedures of the audit or inspection would have been helpful to the reader in
        understanding this report?

     2. What additional information related to findings and recommendations could have been
        included in the report to assist management in implementing corrective actions?

     3. What format, stylistic, or organizational changes might have made this report's overall
        message more clear to the reader?

     4. What additional actions could the Office of Inspector General have taken on the issues
        discussed in this report that would have been helpful?

     5. Please include your name and telephone number so that we may contact you should we
        have any questions about your comments.


Name __________________________________ Date _______________________________


Telephone ______________________________ Organization _________________________


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585
                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and
cost effective as possible. Therefore, this report will be available electronically through the Internet at
                                         the following address:

                  U.S. Department of Energy Office of Inspector General Home Page
                                        http://energy.gov/ig

Your comments would be appreciated and can be provided on the Customer Response Form attached to
                                           the report.
